    September 2, 2005




 Oversight Review
Quality Control Review of Naval Audit
Service’s Special Access Program Audits
(Report No. D-2005-6-010)




               Department of Defense
           Office of the Inspector General
 Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of Defense
  Inspector General at http://www.dodig.mil/audit/reports or contact the Office of Audit
  Policy and Oversight at (703) 604-8760 or fax (703) 604-9808.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of Audit Policy and
  Oversight at (703) 604-8760 or fax (703) 604-9808. Ideas and requests can also be mailed
  to:

                                         OAIG-APO
                           Department of Defense Inspector General
                             400 Army Navy Drive (Room 1015)
                                 Arlington, VA 22202-4704




Acronyms
AAA                   Army Audit Agency
AIC                   Auditor-In-Charge
GAS                   Government Auditing Standards
NAVAUDSVC             Naval Audit Service
PCIE                  President’s Council on Integrity and Efficiency
SAP                   Special Access Program
                                 INSPECTOR GENERAL
                               DEPARTMENT OF DEFENSE
                                  400 ARMY NAVY DRIVE
                             ARLINGTON, VIRGINIA 22202-4704



                                                                    SEP - 2 2005

MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE NAVY

SUBJECT: Quality Control Review of Naval Audit Service's Special Access Program
         Audits (Report No. D-2005-6-010)

        We are providing this report for your review and comment. We have reviewed the
Naval Audit Service (NAVAUDSVC) system of quality control used on Special Access
Program (SAP) audits for the three years ended September 30,2004. The Government
Auditing Standards (GAS) require that an audit organization performing audits and/or
attestation engagements in accordance with GAS should have an appropriate internal
quality control system in place and undergo an external peer review at least once every
3 years by reviewers independent of the audit organization being reviewed. As the
organization that has audit policy and oversight responsibilities for audits in the
Department of Defense, we conducted this external peer review of the NAVAUDSVC
audits requiring special access in conjunction with the Army Audit Agency's external
peer review of NAVAUDSVC non-SAP audits.

       An audit organization's quality control policies and procedures should be
appropriately comprehensive and suitably designed to provide reasonable assurance of
meeting the objectives of quality control. We tested the NAVAUDSVC SAP system of
quality control to the extent considered appropriate.

       In our opinion, the NAVAUDSVC system of quality control used on SAP audits
in effect for the period ended September 30,2004, was designed in accordance with
quality standards established by GAS. Further, the internal quality control system was
operating effectively to provide reasonable assurance that SAP audit personnel were
following established policies, procedures, and applicable auditing standards.
Accordingly, we are issuing an unqualified opinion on your quality control system used
on SAP audits for the review period ended September 30,2004.

        Appendix A contains the scope and methodology of the review. Appendix B
contains comments, observations, and recommendations where NAVAUDSVC can
improve its quality control program related to SAP audits, as well as our responses to
NAVAUDSVC management comments to the draft report. Appendix C provides the full
text of management comments in response to the draft report. Please provide additional
comments in response to Appendix B by September 19,2005.
       We wish to express our thanks to you and your staff for your cooperation and
professionalism. Please contact Mr. Robert L. Kienitz at (703) 604-8754
(DSN 664-8754) or Ms. Carolyn R. Davis at (703) 604-8877 (DSN 664-8877) if you
have any questions.



                                      &                ~ ~ D M N
                                           atricia . Brannin
                                      7   Assistant Inspector General
                                           Audit Policy and Oversight



Cc: Director, DoD Special Access Program Coordination Office
Appendix A. Scope and Methodology

We limited our review to the adequacy of NAVAUDSVC SAP auditors’ compliance with
quality policies, procedures, and standards. We judgmentally selected 3 SAP audits from
a universe of 11 formal reports requiring special access issued by the NAVAUDSVC
Special Audits Division in FYs 2002, 2003, and 2004, and tested each audit for
compliance with the NAVAUDSVC system of quality control. The Army Audit Agency
(AAA) conducted a review of the NAVAUDSVC internal quality control system for non-
SAP audits and/or attestation engagements and has issued a separate report. The
Assistant Inspector General for Audit Policy and Oversight will issue an overall opinion
report on the NAVAUDSVC internal quality control system that will include the
combined results of the reviews of SAP and non-SAP audits.

In performing our review, we considered the requirements of quality control standards
and other auditing standards contained in the 2003 Revision of the Government Auditing
Standards (GAS) issued by the Comptroller General of the United States. GAS 3.52
states:

       The external peer review should determine whether, during the period under review, the
       reviewed audit organization’s internal quality control system was adequate and whether
       quality control policies and procedures were being complied with to provide the audit
       organization with reasonable assurance of conforming with applicable professional
       standards. Audit organizations should take remedial, corrective actions based on the
       results of the peer review.

We conducted this review in accordance with standards and guidelines established in the
Draft 2004 President’s Council on Integrity and Efficiency (PCIE) “Guide for
Conducting External Peer Reviews of the Audit Operations of Offices of Inspector
General.” We modified the Guide to ensure consistency with the AAA review of
non-SAP audits, and to reflect the unique nature of auditing within a SAP environment.
We interviewed NAVAUDSVC auditors and their managers, reviewed NAVAUDSVC
internal audit-related policies and procedures. We performed this review in May through
June 2005 at the NAVAUDSVC Special Audits Division.

We used the following criteria to select the audits under review:

       • Worked backward starting with FY 2004 audits in order to review the most
         current quality assurance procedures in place.
       • Eliminated Base Realignment and Closure audits because they are not
         considered typical audits.
       • Avoided audits with multiple SAPs associated with the audit for ease of access.
       • Avoided audits that have the same or similar titles to ensure review of multiple
         types of projects.

                                                 3
The following table identifies the specific reports reviewed.

    Report Number                 Date                             Title
      N2003-0046             April 30, 2003       “Travel Cards”

      N2003-0013          November 12, 2002       “Purchase Cards”

      N2002-0076          September 27, 2002      “Contract Closeout”


Limitations of Review. Our review would not necessarily disclose all weaknesses in the
system of quality control or all instances of noncompliance with it because we based our
review on selective tests. There are inherent limitations in considering the potential
effectiveness of any quality control system. In performing most control procedures,
departures can result from misunderstanding of instructions, mistakes of judgment,
carelessness, or other human factors. Projecting any evaluation of a quality control
system into the future is subject to the risk that one or more procedures may become
inadequate because conditions may change or the degree of compliance with procedures
may deteriorate.




                                              4
Appendix B. Comments, Observations, and
            Recommendations

We are issuing an unqualified opinion on this external peer review because the concerns
we identified during our review were not cumulatively significant to the reports’ findings,
conclusions, or recommendations. Overall, we found that NAVAUDSVC could improve
the quality control program and guidance for audits related to the areas of Audit
Planning, Supervision, Evidence and Audit Documentation, and Quality Assurance. We
also noted one other matter of interest related to a PCIE-required certification of working
paper completion. Implementing the recommendations identified below would improve
the quality control system and help maintain an unqualified opinion.

Audit Planning. GAS 7.02 states that “work is to be adequately planned,” and GAS
7.07 states that “planning should be documented.” GAS 7.41 requires auditors to
document the planning, and states “the form and content of the written audit plan will
vary among audits, but should include an audit program or project plan, a memorandum,
or other appropriate documentation of key decisions about the audit objectives, scope,
and methodology and of the auditors’ basis for those decisions. It should be updated, as
necessary, to reflect any significant changes to the plan made during the audit.”

The September 2002 NAVAUDSVC Handbook Sections 415.2 and 415.3 required the
responsible Audit Director and Assistant Auditor General to approve audit programs
before the start of the audit verification phase, and to be aware of any significant changes
to the audit program. NAVAUDSVC Handbook Section 510.5 stated that when
reviewing individual working papers (including the audit program), the Project Manager
must include his/her initials or signature and the date of the review on the working papers
as evidence of the review. NAVAUDSVC Handbook Section 417 required auditors to
cross-reference audit steps to supporting working papers, and NAVAUDSVC Handbook
Section 412.1 required auditors to evaluate the reliability of computer-based products to
determine risks in using such products that are significant to the audit objective(s) and
scope.

We found that NAVAUDSVC adequately planned the three projects we reviewed;
however, improvements in documentation were needed for all three projects. In one
project, the auditors created an audit program that set forth the objectives of the audit and
included steps to address each of the objectives, and the Project Manager documented
approval with initials and date. The Project Manager also initialed the final
cross-referenced version of the audit program. However, the Project Manager did not
date his initials on the final cross-referenced version. In addition, the audit program did
not include steps to verify data received through management from outside sources (the
travel card contractor). The Project Manager stated that although these steps were not



                                              5
specifically in the audit program, he believed the auditors did verify this data through
other steps in the program.

In the second project, we found evidence of supervisory involvement and approval of the
audit plan. However, the audit plan was not cross-referenced to the working papers.
Therefore, we could not tell whether all steps in the audit plan were completed or
modified and if so whether the NAVAUDSVC management approved the modifications.

In the third project, we did not find documented supervisory approval of the audit
program. Though we could not tell in reviewing the audit program whether any
modifications were made to the audit plan, this project was the fifth in a series of six, and
NAVAUDSVC auditors indicated during our review that the plan had been standardized
by the time this audit was performed. In addition, though the audit program was
cross-referenced to the working papers, the program provided for auditors’ initials and
date for each step but that column was not completed.

       Recommendation. We recommend that the Auditor General, Department of the
Navy, remind all SAP managers to document their approval for all original and updated
audit programs (including the cross-referenced version), ensure that the audit programs
include steps for verifying data obtained from outside sources during the audit, ensure the
audit program is adequately cross-referenced to working papers, and complete the initial
and date column if such a column is included in the audit program.

       Management Comments. The NAVAUDSVC concurred with the
recommendation and stated that an all-hands e-mail will be issued by November 30,
2005, reminding all personnel of existing NAVAUDSVC requirements pertaining to
audit programs and evaluating computer-based products to determine risks.

       Reviewer Response. Management comments are responsive.

Supervision. Paragraph 6.22 of the June 1994 version of GAS and paragraph 7.44 of the
June 2003 version of GAS state that “staff are to be properly supervised.” The
November 2001 version of the NAVAUDSVC Handbook Paragraph 510(4) stated that
the Project Manager or a senior experienced auditor should review individual working
papers. To provide evidence of the review, the reviewer should include their initials or
signature and the date of the review on the working papers. Also, the Handbook stated
that the Audit Director should review working papers supporting unusually sensitive
findings and conclusions and that the Audit Director should place emphasis on work
performed by the Project Manager.

The projects showed evidence of supervisory involvement and oversight; however,
improvements could be made for documenting supervisory review in two projects. In
one project, while there was evidence of supervisory involvement which was indicated by


                                              6
the Project Manager signing the working papers reviewed, the Project Manager did not
provide a date of the review for 7 of the 10 working papers reviewed. For the working
papers that were dated by the Project Manager the review was timely. However, for the
remaining working papers we could not tell whether the supervisory review was timely.
In addition, none of the 12 working papers prepared by the Project Manager were
reviewed. The Project Manager stated that the Audit Director relied on the experience
and expertise of the Project Manager.

In the second project, while there was evidence of supervisory involvement, only
24 percent of the working papers we looked at were reviewed by the supervisor. We
reviewed at least 7 of 11 file folders of working papers. We reviewed a total of
59 working papers and found that only 14 of the 59 were reviewed by a supervisor. Nine
of the 59 had working paper review sheets filled out; however 2 of the 9 had no reviewer
sign off of approval of actions taken. For the working papers that were signed off by the
Project Manager the review was timely. However, for the remaining working papers we
could not tell whether supervisory review was conducted or timely. The Project Manager
stated that critical working papers should have been reviewed based on then current
NAVAUDSVC guidance. However, we found that 21 of the 59 working papers were
cross-referenced to the report and therefore considered critical and quite often
documented significant facts and figures in the report.

       Recommendation. We recommend that the Auditor General, Department of the
Navy remind SAP supervisors to sign/initial and date their review of working papers and
that working papers used to support referenced draft/final report statements (specifically
facts and figures) should be reviewed by the supervisory personnel.

       Management Comments. The NAVAUDSVC concurred with the
recommendation and stated that an all-hands e-mail will be issued by
November 30, 2005, reminding all personnel of existing NAVAUDSVC requirements
related to documentation of supervision.

       Reviewer Response. Management comments are responsive.

Evidence and Audit Documentation. Working papers are used to organize, prepare,
and collect relevant documentation and records during an audit. GAS 7.66 requires that
auditors prepare and maintain audit documentation, and that the audit documentation
should contain support for findings, conclusions, and recommendations before auditors
issue their report. GAS 7.68 states that the audit documentation forms the principal
support for the auditors’ report. In addition, the September 2002 NAVAUDSVC
Handbook Section 506.2 required auditors to include “basic labeling information” such as
the auditor’s name, date prepared, the source of the information (if the source was an
individual, this should include the person’s rank or grade; name; position title; telephone
number; organization; and date, time, and place information was provided), and the


                                            7
purpose of the working paper. NAVAUDSVC Handbook Section 509.1 stated that “All
facts and mathematical computations in draft and final reports and related working paper
summaries must be cross-referenced to underlying working papers.”

We found that the working papers generally contained sufficient, competent, and relevant
evidence to support the judgments and conclusions in the reports; however,
documentation could have been improved in all three reports. In one report, we found
that the auditor did not document the “date prepared” on several working papers used to
document meetings with client management. This is mitigated somewhat by the fact that
the working papers did include the dates of the meetings. In addition, we reviewed more
than 15 judgmentally selected facts and figures in the report and found that all were
supported by information in the working papers. However, in eight of the sample items,
we found figures that were inadequately cross-referenced to supporting documentation.
Also, in several cases, figures cross-referenced to source documents did not have
adequate source information (names and phone numbers). Further, one figure
cross-referenced to briefing charts prepared by management was not verified against
source documents in the working paper files (this figure was the universe of transactions
which the auditors drew their sample from).

In the second report, though the facts and figures in the report were verified by the
independent referencing reviewer, the working papers supporting numerous facts and
figures in the report were not documented as reviewed by a supervisor. In addition,
improvements could be made in the independent reference review process to ensure that
corrected references are not only included and approved on the independent referencing
review comment sheet but also changed in the cross-referenced version of the report. We
found instances where the corrected reference on the review sheet was not changed in the
cross-referenced report resulting in the risk of transferring incorrect references to the final
report.

In the third report, we judgmentally selected 15 facts and figures from the report and
determined that all of them were properly supported. However, improvements could be
made for cross-referencing working papers. Specifically, the summary working paper
was not cross-referenced to the supporting working papers and a better job could have
been done of cross-referencing numbers in the individual working papers and Excel
spreadsheets to the source documents. The source documents included such things as
various reports and other information obtained from contract files.

       Recommendation. We recommend that the Auditor General, Department of the
Navy, remind all SAP auditors to comply with established guidance for working papers,
documentation, and audit evidence, including transferring corrected references to the
cross-referenced report.




                                              8
       Management Comments. The NAVAUDSVC concurred with the
recommendation and stated that an all-hands e-mail will be issued by
November 30, 2005, reminding auditors of existing GAS and NAVAUDSVC guidance
related to working papers, documentation, and audit evidence.

       Reviewer Response. Management comments are responsive.

Quality Assurance. The June 1994 version of GAS and paragraph 3.49 of the June 2003
version required each organization to have an appropriate internal quality control system
in place. The November 2001 version of the NAVAUDSVC Handbook stated that an
example of quality control in the NAVAUDSVC was a referencing validation performed
by an independent auditor. We found that NAVAUDSVC had implemented appropriate
internal quality controls for the three reports we reviewed; however, documentation could
have been improved for one report. While an Independent Referencing Review was done
before the draft report was issued and there was evidence that comments that the
Independent Referencer had were adequately addressed by the Project Manager,
improvements could be made in completing the referencer’s certification. While the
referencing certification statement was signed by the Independent Referencer, the
statement was not signed by the Project Manager and/or Audit Director.

GAS 3.50 requires that an audit organization’s internal quality control system should
include procedures for monitoring, on an ongoing basis, whether the policies and
procedures related to the standards are suitably designed and are being effectively
applied. This is often referred to as an internal quality assurance program.

The NAVAUDSVC Handbook provides guidance on the NAVAUDSVC Quality Control
Program. The NAVAUDSVC Quality Control Program includes internal quality control
checks and reviews. As part of the NAVAUDSVC Quality Control Program,
independent, internal quality control reviews of selected audits or segments of audits will
be conducted to provide reasonable assurance NAVAUDSVC policies and procedures
were being followed and are in accordance with GAS. The internal quality control
reviews will be performed in accordance with the NAVAUDSVC Handbook. In
addition, the quality control review results will be documented and recommendations
tracked through to final resolution. The NAVAUDSVC Special Audits Division was
responsible for audits of intelligence, compartmented programs and sensitive activities.

According to NAVAUDSVC personnel, audits classified as requiring special access are
only a portion of the Special Audits Division workload. Other information, such as
intelligence or intelligence related information might be compartmented or not. The
audit work is not unique; the work is only classified at a higher level with additional
access restrictions. The Special Audits Division products that do not require special
access are always eligible for internal quality assurance reviews. The NAVAUDSVC
Handbook does not exempt or waive SAP audits from internal quality assurance reviews.


                                             9
However, NAVAUDSVC personnel from the Policy and Oversight Division stated that
SAP audits have never been included as part of the internal quality assurance review
program except for controls over things like continuing professional education that do not
require the reviewer to have access to the highly classified report and/or working papers.

Special Audits Division products that do require special access should be subject to
internal quality assurance reviews due to challenges in meeting the other quality
processes that are identified in this report. The need for special access and security
requirements in the SAP environment impact on the extent of supervision,
documentation, and quality controls compared to an unclassified environment. In
addition, occurrence of an external peer review is rare within the SAP audit environment.
Periodically performing internal quality assurance reviews on SAP audits would allow
for greater reliability on the quality (including accuracy) of these very important SAP
audit reviews and the associated reports that address areas and programs that impact
heavily on our national security.

We recognize that the usual NAVAUDSVC quality assurance program may need to be
adapted to the SAP environment. However, having the internal quality assurance
visibility within the SAP environment is critical to an effective quality program.

      Recommendation. We recommend that the Auditor General, Department of the
Navy, remind SAP supervisors to sign the referencer certification statement.

     Management Comments. The NAVAUDSVC concurred with the
recommendation and stated that an all-hands e-mail will be issued to auditors by
November 30, 2005, reminding supervisors to sign the referencer certification statement.

       Reviewer Response. Management comments are responsive.

      Recommendation. We recommend that the Auditor General, Department of the
Navy, adapt its internal quality control review program, as needed, for SAP audits.

        Management Comments. The NAVAUDSVC partially concurred with the
recommendation and stated that they will adapt its internal quality control program to
SAP audits as needed. However, the NAVAUDSVC also stated that this would entail
only continuing to include SAP auditors in cross-cutting internal quality control reviews,
and not reviewing specific SAP audits. The NAVAUDSVC stated that including SAP
audits in internal quality control reviews would be contrary to DoD policy because it
would require obtaining access to the SAPs for additional personnel without the
justification of additional oversight to the SAP.

       Reviewer Response. Management comments are partially responsive. Based on
our review and understanding of the NAVAUDSVC process, they include the SAP


                                            10
auditors in the internal quality assurance process up to a point. While the examples they
cited in their comments – certifications and continuing professional education – are
important, they do not include a review of critical elements of the audit standards related
to audit planning, evidence and documentation, and reporting. Without a review of
project-specific audit work and documentation, it is not possible for NAVAUDSVC to
verify that SAP auditors are complying with guidance and standards. NAVAUDSVC
needs to insure more than the “administrative requirements in the Naval Audit Service
Handbook” are met. We recognize that the SAP audits could not be treated the same as
non-SAP audits in the internal quality assurance program, especially for the critical
elements listed above. However, alternative procedures can be performed that would
meet the requirements of GAS for on-going monitoring. We believe that NAVAUDSVC
can include some of these highly classified programs in its reviews without necessarily
getting additional people cleared. Using the Program Director, current staff who did not
work on the audit, or former staff with the requisite clearance are possible options.

       We request that the Auditor General, Department of the Navy reconsider his
decision not to include SAP audits in the NAVAUDSVC internal quality control review
program, and provide additional comments by September 19, 2005.

Other Matter of Interest. GAS 7.66 states that "audit documentation should contain
support for findings, conclusions, and recommendations before auditors issue their
report." In addition, GAS 8.44 states that reports "should include only information,
findings, and conclusions that are supported by sufficient, competent, and relevant
evidence in the audit documentation." The July 2004 Draft PCIE Guide required
agencies being reviewed to either provide working papers to the reviewers within
2 working days of notification that a project has been selected for review. If the agency
cannot provide the working papers within 2 working days, PCIE provides a form that the
agency must use to either certify that the working papers had not been changed after the
final report was issued or document changes that had been made since the report was
issued and explain why the changes were made.

NAVAUDSVC personnel agreed during the planning phase of the FY 2005 round robin
external peer review to follow the July 2004 Draft PCIE Guide. At the start of the round
robin external peer review it was agreed that the Military Department audit agencies
would conduct the external peer review of the unclassified and collateral audits while the
Office of the Inspector General; Department of Defense would conduct the review of the
SAP audits. Due to the unique security requirements of auditing special access
information, at least 48 working days passed between when we notified NAVAUDSVC
of the audits selected for review and when we obtained physical access to the working
papers. However, NAVAUDSVC personnel chose not to certify that the working papers
had not been changed since reports were issued, or to document and explain any changes
made to the working papers because: (1) the working papers were available within 48
hours as required by the draft PCIE guide just not to the peer review team; (2) the


                                            11
selected audits were several years old and the working papers were all hard copy; and (3)
none of the NAVAUDSVC staff who had worked on the audits were still in the Special
Audits Division. Therefore, NAVAUDSVC personnel certified that the working papers
had not been changed since the date that they provided us the universe of SAP audit
reports issued during FYs 2002, 2003, and 2004. However, the working papers were not
technically available given that NAVAUDSVC could not provide us with access to the
working papers until the appropriate security procedures were taken care of.

NAVAUDSVC personnel stated that NAVAUDSVC policy at the time of our review was to
include any post-audit work (including responses to final report and follow-up of
recommendations) in the working papers of the audit. As a result of concerns about post-
report issuance changes to audit documentation and notification of peer review as part of
the round robin performed by the Army Audit Agency, NAVAUDSVC is instituting a
new procedure for compiling all post-audit documentation in a file separate from the rest
of the audit documentation. This action should safeguard audit documentation used to
support findings, conclusions, and recommendations after final report issuance. Though
manual working papers are used in the SAP environment, NAVAUDSVC should
incorporate the new procedure within the SAP audit environment to reduce the potential
that audit documentation used to support findings, conclusions, and recommendations in
the final report can be inappropriately changed.

      Recommendation. We recommend that the Auditor General, Department of the
Navy, ensure that the new procedure on post-audit documentation be incorporated into
the SAP audit process.

       Management Comments. The NAVAUDSVC concurred and stated that they
will develop and implement post-audit procedures for SAP audit documentation by
November 30, 2005.

       Reviewer Response. Management comments are responsive.




                                             12
Appendix C. Management Comments




                       13
Final Report
 Reference




Revised
Report at
p. 5




               14
15
16
